OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/NIGERIA’S
PEPFAR-FUNDED ACTIVITIES
AND COMMODITIES FOR THE
PREVENTION OF MOTHER-TO-
CHILD TRANSMISSION OF HIV
AUDIT REPORT NO. 7-620-10-002-P
January 19, 2010




DAKAR, SENEGAL

Office of Inspector General


January 19, 2010

MEMORANDUM

TO:                 USAID/Nigeria Director, Ray Kirkland

FROM:               Regional Inspector General, Gerard Custer /s/

SUBJECT:            Audit of USAID/Nigeria’s PEPFAR-Funded Activities and Commodities for the
                    Prevention of Mother-to-Child Transmission of HIV (Report No. 7-620-10-002-P)


This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those comments in
their entirety as appendix II.

The report includes five recommendations to strengthen USAID/Nigeria’s activities under the
President’s Emergency Plan for AIDS Relief. Management decisions have been reached on all
five recommendations.

Please provide USAID’s Office of Audit, Performance, and Compliance Division (M/CFO/APC)
with the necessary documentation demonstrating that final action has been taken on the
recommendations.

Thank you for the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objectives ................................................................................................................ 3


Audit Findings ................................................................................................................. 4 


Did USAID/Nigeria’s activities for the prevention of mother-to-child transmission of

HIV contribute toward meeting mandated targets and what has been the impact?.......... 4 


     Reported Data Not Verified ......................................................................................... 5 


Did USAID/Nigeria procure, store, and distribute commodities for the prevention 

of mother-to-child transmission of HIV to help ensure that intended results were 

achieved, and what has been the impact?........................................................................ 6 


     Supply Chain Management System 

     Needs Improvement.................................................................................................... 7 


Evaluation of Management Comments ....................................................................... 11 


Appendix I—Scope and Methodology......................................................................... 13 


Appendix II—Management Comments........................................................................ 15 

SUMMARY OF RESULTS 

Prevention of mother-to-child transmission (PMTCT) of HIV1 is a critical part of
USAID/Nigeria’s implementation of the President’s Emergency Plan for AIDS Relief
(PEPFAR). Through these activities, USAID/Nigeria plans to (1) increase access to
PMTCT services by making them available and closer to clients’ homes and (2) increase
the number of HIV-positive women taking antiretroviral drugs during pregnancy and
labor. (See pages 2–3.)

To implement the activities, the mission entered into cooperative agreements with
Family Health International (June 2004 to June 2009), Catholic Relief Services (July
2004 to March 2011), and Management Sciences for Health (October 2007 to May
2009). During fiscal year (FY) 2008, USAID/Nigeria obligated $7.5 million and disbursed
$5.8 million for PMTCT activities. (See pages 2–3.)

For the items we tested during visits to 9 of 190 program sites, USAID/Nigeria’s PMTCT
activities contributed toward meeting mandated targets, and the mission funded the
procurement, storage, and distribution of commodities to ensure that intended results
were achieved.        USAID-supported implementers reported that they exceeded
performance targets for expanding service outlets, providing counseling and testing
services and antiretroviral drugs to pregnant women, and training health workers.
However, it is not known whether these activities had an impact on the rate of mother-to­
child transmission because HIV/AIDS testing of infants began only in 2008, and
implementers do not have baseline data from earlier years. (See page 4.)

Notwithstanding the program’s accomplishments to date, results were significantly
misstated in almost one third of the cases we tested, with an average misstatement of
16 percent. USAID/Nigeria needs to strengthen the program by verifying reported data
(page 5). In addition, we found several instances of weak inventory management and
serious control deficiencies.    USAID/Nigeria needs to improve its supply chain
management (page 7.)

To address the areas of concern identified by the audit, we recommend that
USAID/Nigeria conduct training for all administrative staff and health workers, verify and
maintain support for reported data, reevaluate internal controls over commodities, review
unsecured items valued at $57,000, and evaluate questioned costs of $39,720 related to
missing inventory and recover funds as appropriate. (See pages 6 and 10.)

On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that management decisions have been reached on all five
recommendations. The mission’s written comments on the draft report are included in
their entirety, as appendix II to this report (see pages 15–20).




1
    HIV/AIDS—Human immunodeficiency virus/acquired immunodeficiency syndrome.


                                          1

BACKGROUND
Congress enacted legislation2 to fight HIV/AIDS globally through the President’s
Emergency Plan for AIDS Relief (PEPFAR) in May 2003. As of January 2008, the
U.S. Government committed $18.8 billion, of which 58 percent was allocated to
programs in 15 focus countries,3 including Nigeria. On July 30, 2008, President George
W. Bush signed into law an act to extend the U.S. Government’s leadership commitment
to an additional 5 years, from fiscal year (FY) 2009 through FY 2013.4

Nigeria, 1 of the 15 PEPFAR focus countries, has been implementing prevention of
mother-to-child transmission (PMTCT) of HIV since 2004. Nigeria has a population of
138 million to 148 million people, of whom 2.6 million are thought to be infected with
HIV/AIDS, according to the international AIDS charity, AVERT. Funding for PEPFAR in
Nigeria has grown from $304.8 million in FY 2007 to $447.6 million in FY 2008, making
Nigeria the third largest recipient of PEPFAR funding among the 15 focus countries.
According to the PEPFAR FY 2008 budget for focus countries, the $447.6 million
received by Nigeria was allocated as follows: the Department of Health and Human
Services, through the Centers for Disease Control and Prevention, managed $221.3
million; USAID, $216.4 million; the Department of Defense, $8.1 million; and the State
Department, the remainder.

This audit focused on prevention of mother-to-child transmission of the virus. According
to published reports, HIV infections in children are estimated at more than 700,000
cases annually worldwide.         The leading source of infection is mother-to-child
transmission. Without intervention, HIV-positive mothers have a 35 percent overall risk
of transmitting HIV to their children during pregnancy, delivery, and breastfeeding. In
2009 alone, about 240,000 HIV cases have been reported among children in Nigeria.

However, the risk of mother-to-child transmission can be reduced to less than 2 percent
with interventions that include antiretroviral (ARV) drugs given to women in pregnancy
and at labor. Other important measures include the use of ARV drugs for infants in the
first 6 weeks after delivery and complete avoidance of breastfeeding. Several drugs are
prescribed for people living with HIV/AIDS. During labor, women receive Nevirapine,5 a
7-day regimen of Zidovudine (AZT),6 and Lamivudine (3TC),7 and newborns receive
Nevirapine and AZT for 6 weeks. Cotrimoxazole (CTX)8 is administered routinely to all
HIV-exposed children from the age of 6 weeks until they are proven HIV negative.



 2
    The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003,
Public Law 108–25, 117 Stat. 711 (codified as amended in scattered sections of 22 U.S.C.).
  3
     Botswana, Côte d’Ivoire, Ethiopia, Guyana, Haiti, Kenya, Mozambique, Namibia,
Nigeria,Rwanda, South Africa, Tanzania, Uganda, Vietnam, and Zambia.
  4
     Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008, Public Law 110–293, 122 Stat. 2918.
  5
    A prescription medication used for treating HIV/AIDS in adults and children.
  6
    A medication used to treat patients infected with HIV/AIDS.
  7
    An antiretroviral drug used in combination with other antiretrovirals to suppress HIV.
  8
    An antibiotic commonly given to pregnant HIV-positive women to treat different types of
bacterial infections.


                                         2

USAID/Nigeria participates in an interagency implementation of PEPFAR, and its efforts
complement activities of the Centers for Disease Control and Prevention, Department of
Defense, and State Department. These efforts increase access to PMTCT services and
bring services closer to clients’ homes, where more HIV-positive pregnant women can
have access to ARV drugs during antenatal care and labor. These drugs can prevent
the transmission of the virus from mother to child during childbirth. Currently,
USAID/Nigeria’s PMTCT program includes a full range of services and technical
assistance implemented by three implementing partners—Family Health International
(June 2004 to June 2009), Catholic Relief Services (CRS, July 2004 to March 2011),
and Management Sciences for Health (October 2007 to May 2009).

Each implementing partner carried out procurement, storage, and distribution of
PEPFAR commodities individually. While CRS procured, managed, and distributed its
commodities, the two other implementing partners used a procurement agent, Axios, to
procure, store, and distribute their commodities. Axios uses a combination of
government warehouses, which Axios upgraded, and leased commercial buildings to
store the commodities, as most of the government-owned warehouses are of
substandard quality and are not suitable to store antiretroviral drugs. Axios and CRS
relied on freight companies and courier services to distribute the commodities to the
health facilities.

For fiscal year 2008, USAID/Nigeria obligated $92.8 million and disbursed $74.8 million
for PEPFAR activities. Of this amount, $7.5 million was obligated and $5.8 million was
disbursed for preventing the transmission of HIV from mother to child.

AUDIT OBJECTIVES
This audit was conducted as part of a worldwide audit of USAID’s PEPFAR-funded
activities and commodities for the prevention of mother-to-child transmission of HIV.
The Regional Inspector General/Dakar conducted this audit in Nigeria to answer the
following questions:

	 Did USAID/Nigeria’s activities for the prevention of mother-to-child transmission of
   HIV contribute toward meeting mandated targets, and what has been the impact?

	 Did USAID/Nigeria procure, store, and distribute commodities for the prevention of
   mother-to-child transmission of HIV to help ensure that intended results were
   achieved, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                       3

AUDIT FINDINGS 

Did USAID/Nigeria’s activities for the prevention of mother-to-
child transmission of HIV contribute toward meeting mandated
targets, and what has been the impact?
For the items we tested during visits to 9 of 190 program sites, USAID/Nigeria’s activities
for the prevention of mother-to-child transmission (PMTCT) of HIV contributed toward
meeting mandated targets for fiscal year (FY) 2008. However, it is not known whether
these activities had an impact on the rate of mother-to-child transmission because
HIV/AIDS testing of infants began only in 2008, and implementers do not have baseline
data from earlier years. During FY 2008, USAID, through its implementing partners,
reported the following contributions to the PEPFAR program’s overall accomplishments
in Nigeria:

	 Supported 190 of the 472 service outlets providing PMTCT services.
	 Provided HIV counseling, testing, and test results to 239,823 of the 556,317
   pregnant women who were counseled and tested and who received test results in a
   PMTCT setting.
 Provided a complete course of antiretroviral drugs to 7,204 of the 26,933 pregnant
   women who received antiretroviral drugs in a PMTCT setting.
 Trained 1,187 of the 3,407 health workers trained in the provision of PMTCT services
   according to national and international standards.

As shown in table 1, these reported accomplishments significantly exceeded the
established performance targets.

        Table 1. FY 2008 USAID Targets and Reported Results (Unaudited)
                                                                              Percentage
               Indicators                    Targets      Reported Results
                                                                               Achieved
 Number of service outlets providing the
 minimum package of PMTCT services
                                                  78            190               244
 according to national and international
 standards.
 Number of pregnant women who
 received HIV counseling and testing for         85,150       239,823             282
 PMTCT and received their test results.
 Number of pregnant women provided
 with a complete course of antiretroviral        4,506         7,204              160
 prophylaxis in a PMTCT setting.
 Number of health workers trained in the
 provision of PMTCT services according            384          1,187              309
 to national and international standards.

However, it is not known whether these activities had an impact on the mother-to-child
transmission rate because HIV/AIDS testing of infants began only in 2008, and baseline
data for earlier years are not available. Testing of infants did not begin until 2008
because Nigeria lacked a national policy to support infant testing until 2007, because of




                                            4

the cost involved, and because the required technology was not widely available in
Nigeria.

Nonetheless, it is clear that PMTCT activities supported by USAID/Nigeria had a
significant effect on the health system in Nigeria and in the lives of HIV-positive mothers,
as large numbers of women gained access to HIV testing and counseling and became
aware of their HIV status. In FY 2008 USAID/Nigeria supported an additional 33 PMTCT
sites, mostly in rural and difficult-to-access areas. The women we interviewed who had
access to PMTCT services in the last year were pleased with the services received.

In spite of USAID/Nigeria’s positive results and beneficial aspects of the PMTCT
activities, the audit found problems with both the accuracy of the data reported and the
data collection system as described below.

Reported Data Not Verified
Summary. To measure performance effectively and make informed management
decisions, according to USAID guidance, missions must ensure that quality data are
collected and made available. In almost one-third of the cases we tested, results were
significantly misstated with an average misstatement of 16 percent. These problems
occurred partly because implementing partners misinterpreted what was to be reported
and because of high staff turnover and a lack of training available to staff responsible for
collecting data. As a result, the Office of the U.S. Global AIDS Coordinator and USAID
management relied on inaccurate data to make funding and programmatic decisions,
such as the funding level for the PEPFAR activities and the overall assessment of
PEPFAR’s achievement in Nigeria.

To measure performance effectively and make informed management decisions,
missions must ensure that quality data are collected and made available. USAID
provides its operating units with extensive guidance to help them manage for improved
results. Among this guidance is Automated Directives System (ADS) 203.3.5.2, which
states that the USAID Mission/Office and Assistance Objectives Teams should be aware
of the strengths and weaknesses of their data and the extent to which the data’s integrity
can be trusted to influence management decisions. According to ADS 203.3.5.1, “Data
Quality Standards,” performance data should meet data quality standards for validity,
integrity, precision, reliability and timeliness, and missions should take steps to ensure
that submitted data are adequately supported.

We performed spot checks of the data reported to USAID by the three PMTCT
implementing partners to verify the accuracy of information reported to USAID and to
confirm that each partner had an effective data collection system. At the nine sites
visited, we verified the reported results for two of the four main indicators—the number
of pregnant women who had received counseling and testing for HIV and had received
their test results and the number of pregnant HIV positive women who had received
antiretroviral (ARV) prophylaxis.

The audit found problems with both the accuracy of the data reported and the system of
data collection. In 5 of the 18 cases checked, reported results were significantly
misstated. For example, the health facility in Bankpor overreported by 11 percent the
number of pregnant women who had been counseled, tested, and received test results.



                                          5

The site reported that 336 pregnant women had been counseled and tested from July
through September 2008, but the supporting documentation showed that only 299
women had received these services. As another example, the health facility in Ogoja
reported that 10 pregnant HIV-positive women had received ARV prophylaxis but the
auditors could verify only 6 that had received the treatment. On average, results were
misstated by 16 percent.

Some reporting inaccuracies occurred because implementing partners had
misinterpreted what was to be reported. For example, Catholic Relief Services (CRS)
inaccurately reported the number of pregnant women who had received counseling and
testing in FY 2008. CRS reported that 12,748 pregnant women had been counseled and
tested, but the actual figure was lower. CRS reported all women receiving testing and
counseling, whether or not they were pregnant or received the services at a PMTCT
service outlet, but the indicator was meant to track pregnant women attending PMTCT
service outlets only. This problem resulted from a design flaw in CRS’s data collection
tool.

These problems in data inaccuracy and collection occurred partly because of high
turnover of monitoring and evaluation staff and staff responsible for data collection at the
sites. As trained staff left, implementing partners did not train newly hired staff how to
collect and report on data gathered at the sites. Also, a lack of training on data
collection and monitoring and evaluation methods are contributing factors. As a result,
the Office of the U.S. Global AIDS Coordinator and USAID management relied on
inaccurate data to make funding and programmatic decisions, such as the funding level
for the PEPFAR activities and the overall assessment of PEPFAR’s achievement in
Nigeria. To strengthen the data collection system and data reliability, we make the
following recommendations.

   Recommendation 1. We recommend that USAID/Nigeria develop a plan with a
   timetable to conduct training for all administrative staff and health workers
   responsible for collecting, compiling, and reporting site data.

   Recommendation 2. We recommend that USAID/Nigeria develop a plan for
   cross-checking and verifying reported data used to make management decisions
   and maintain support of their verification of reported results.



Did USAID/Nigeria procure, store, and distribute commodities
for the prevention of mother-to-child transmission of HIV to
help ensure that intended results were achieved, and what
has been the impact?
Through its implementing partners, USAID/Nigeria procured, stored, and distributed
PMTCT commodities to help ensure that intended results were achieved and that the
impact has been positive. USAID/Nigeria funded the purchase of $451,430 of
antiretroviral drugs for activities implemented during FY 2008 to ensure that intended
results were achieved. These activities were intended to (1) provide a minimum
package of PMTCT services according to national and international standards, (2)
provide counseling, testing, and test results to pregnant women in a PMTCT setting, and



                                          6

(3) provide antiretroviral prophylaxis to pregnant women in a PMTCT setting. In
addition, implementing partners purchased several drugs used in the prevention of
mother-to-child transmission of HIV, including nevirapine, lamivudine, zidovudine, and
combinations thereof. Moreover, they procured laboratory supplies and test kits and
supported health facilities in acquiring opportunistic-infection drugs for PMTCT activities.
According to mission officials and implementing partners, PMTCT activities had not had
any commodity shortages during the FY 2008 reporting period, and we found no
indication to the contrary.

USAID/Nigeria-funded activities for procuring, storing, and distributing commodities for
PMTCT activities have had a positive impact on HIV-positive pregnant women who
received antiretroviral drugs and on their children. The number of pregnant women
receiving antiretroviral drugs procured with USAID/Nigeria support increased by
18 percent from 6,128 in FY 2007 to 7,204 in FY 2008.

Also, during FY 2005–2008, USAID/Nigeria-funded PMTCT antiretroviral purchases
helped 37 percent of the 45,000 pregnant women who had received antiretroviral
prophylaxis in a PMTCT setting with U.S. Government support. Also during that period,
test kits acquired with funding from USAID/Nigeria had supported HIV testing for some
394,000 pregnant women, or 42 percent of the 934,000 pregnant women counseled and
tested with U.S. Government support.

Although USAID/Nigeria and its implementing partners had procured, stored, and
distributed sufficient commodities to ensure that planned results were achieved, the
audit found problems with supply chain management, as described below.

Supply Chain Management
Needs Improvement

 Summary. According to USAID guidance, inventory management is a vital part of the
 logistics system for antiretroviral (ARV) drugs and HIV tests. The audit found several
 instances of weak inventory management and serious control deficiencies. Causes of
 the problems included a lack of adequate experience and training in inventory
 management and control of ARV commodities. As a result of the weaknesses in
 inventory management and control, ARV drugs worth an estimated $97,000 were
 either missing or improperly stored and therefore at risk of being lost or stolen.
According to USAID’s “Guidelines for Managing the HIV/AIDS Supply Chain” (December
2005), inventory management is a vital part of the logistics system for ARV drugs and
HIV tests. The high market value of these life-saving drugs can create incentives for
mismanagement and pilferage if appropriate inventory control procedures and systems
are not implemented and followed. ARV drugs are sensitive to moisture and should be
stored in dry, well-lit, ventilated storerooms. Because these drugs have a short shelf life,
they should be stored according to the first-to-expire, first-out method of inventory
management. USAID guidelines also call for separating damaged and expired
commodities from regular inventory. Moreover, commodity storage should be secured
throughout the supply chain, including storage of damaged and expired commodities.

We found that the ARV supply chain supported by USAID/Nigeria needs improvement,
and we identified several instances of weak inventory management with serious control



                                          7

deficiencies. At a warehouse visited in Abuja, the audit found an estimated 150 boxes of
expired and unexpired ARV drugs, valued at approximately $57,000, heaped together on
the ground behind the warehouse, unsecured. These boxes were stacked for disposal
with rubbish and scrap materials. We sampled some of the boxes and found 10 boxes
of stavudine that were expiring in May 2009 and 42 boxes of nevirapine, of which 3
boxes were expiring in March 2010 and 1 in June 2009. Two days later, we revisited the
warehouse and found the 150 boxes still outside─unsecured, unattended, unsupported,
and now wet, as it had rained the previous night. According to Axios, the purchasing
agent responsible for the storage of the ARV drugs, the warehouse staff routinely
removes expired drugs from stock to make room for incoming drugs. However, Axios
did not explain why unexpired drugs had been grouped with expired drugs and rubbish
outside the warehouse in an unsecured area, ready for disposal. Unsecured and
unaccounted for, these drugs could have been easily expropriated or misused. In
addition to storing USAID-funded ARV commodities, this warehouse also stored ARV
drugs for other implementers, such as Vanderbilt University and the University of
Maryland’s ACTION program. However, none of the boxes in the warehouse had been
labeled to differentiate USAID-funded drugs from drugs from other sources.




Unexpired and expired drugs stacked outside a warehouse—unsecured, unattended, and
           unsupported. Photograph taken by OIG auditors on May 4, 2009.

Also, warehouses and storage rooms operated or supported by Axios and CRS were not
always in compliance with storage guidelines. Typically, racks and shelves were used to
optimize warehouse space. If pallets are stacked on several levels of racks above the
floor, a warehouse can store several times its floor area capacity.       We found that
storage space at the two main warehouses in Abuja had not been fully utilized, as boxes
lined the warehouse floor on pallets but not on racks. In fact, had Axios used the
storage space efficiently, it would not have been compelled to ignore storage guidelines
and store some 150 boxes of drug commodities outside the warehouse, exposed to rain
and heat and susceptible to theft.

Furthermore, several storage rooms at the sites visited did not meet minimum storage
conditions, as storerooms were dimly lit and boxes were stored on the floor. The room
temperature at seven of the nine health facilities, the two zonal warehouses, and one of



                                        8

 the two central warehouses visited exceeded USAID’s maximum recommended storage
 temperature of 77 degrees Fahrenheit. For example, temperatures at Magajiya and
 Suleja were 90 and 82 degrees, respectively. Also, two of the nine health facility
 pharmacies did not utilize inventory stock cards, and in four of the nine pharmacies,
 balances on the stock cards did not match the physical inventory on hand.

 Moreover, inventory records the implementing partners relied on to make procurement
 decisions and forecast ARV needs for PEPFAR were inaccurate. According to the
 implementing partners, monthly inventories are conducted at the sites. However, the
 audit found no documented indication of monthly physical inventory counts at the sites
 visited. In addition, ending balance amounts on stock cards at eight of the nine health
 facilities and at warehouses visited did not match our test counts. The total of all
 missing and unsupported inventory at the sites visited was approximately $40,000.
 Table 2 below lists some examples.

   Table 2. Differences Between Inventory Records and Physical Inventory Count
                                                    Inventory                  Difference
                                                                  Inventory                 Difference
       Location              Name of Drug              (Per                         in
                                                                  (Verified)                 in Value
                                                    Records)                    Quantity
 Bida General           Lamivudine/Zidovudine
                                                       1,030          137        (893)       ($8,840)
 Hospital               300 mg & 150 mg
 Magajiya General
                        Nevirapine 200 mg              115            60          (55)        ($201)
 Hospital
 Suleja General                                        868            578        (290)       ($1,059)
                        Nevirapine 200 mg
 Hospital
 Regina Mundi           Cotrimoxazole
                                                         0             8           8           $34
 Catholic Hospital      suspension
 St. Timothy Clinic     Nevirapine 200 mg              120             0         (120)        ($438)
 Akampa General         Cotrimoxazole
                                                        92            30          (62)        ($262)
 Hospital               suspension
 Abubra General         Cotrimoxazole
                                                        26            18          (8)         ($34)
 Hospital               suspension
 Total other
 locations              All drugs                      N/A            N/A         N/A       ($28,852)

 Total                                                                                      ($39,720)9

The inventory management problems noted during the audit were due to a weak control
environment. Basic control activities—such as monthly inventory check and first-to­
expire, first-out storage guidelines—were not consistently applied, and we found no
indication of management’s actions to enforce implementation of those controls. Other
contributing factors were the lack of adequate inventory management experience and
training needed to manage ARV commodities.

These weaknesses created vulnerabilities that could lead to fraud, waste, and abuse.
They also resulted in the mismanagement of some $97,000 of ARV drugs. A deficient
control environment also cast doubt on the effectiveness and efficiency of the supply
chain operations, on the reliability of reported data, and on the program’s ability to secure
and safeguard PEPFAR commodities.


   9
       This total is the net value of all the over and under differences.


                                                  9

To correct the inventory management problems and weak control environment, we are
making the following recommendations:

    Recommendation 3. We recommend that USAID/Nigeria, in conjunction with its
    implementing partners and the procurement agent, develop an action plan
    timetable to reevaluate internal controls over commodities management and
    address the inventory management deficiencies noted during the audit. The
    action plan should also include activities for raising mission management’s and
    partners’ awareness of the necessity of a proactive control environment.

    Recommendation 4. We recommend that USAID/Nigeria, in conjunction with its
    implementing partners, review the unsecured items valued at $57,000 and
    identify any expired or damaged commodities for disposal and unexpired and
    usable commodities for redistribution to beneficiaries.

    Recommendation 5. We recommend that USAID/Nigeria determine the
    allowability of $39,720 in unsupported questioned costs, as identified in the audit
    report, and recover from the implementing partner any amounts determined to be
    unallowable.




                                         10

EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Nigeria agreed with all five recommendations.
The mission’s comments and our evaluation of those comments are summarized below.

For Recommendation 1, the mission will request that the implementing partners conduct
appropriate refresher training for all administrative staff and health workers responsible
for collecting, compiling, and reporting data by April 3, 2010. The mission has also
agreed to conduct refresher brownbags for USAID technical team staff, including key
contracting staff, on appropriate data quality oversight and management responsibilities.
USAID/Nigeria will share data quality concerns arising from the audit report with the
interagency PEPFAR management team and develop an action plan for further
complementary steps with partner U.S. Government agencies by February 12, 2010.
Accordingly, we consider that a management decision has been reached on this
recommendation.

For Recommendation 2, the mission will procure an external agent to conduct data
quality assessments including data verification (cross-checking) to provide assistance to
USAID HIV/AIDS partners with performance monitoring and reporting. The mission also
will provide added technical assistance in monitoring and evaluation by July 30, 2010.
Accordingly, we consider that a management decision has been reached on this
recommendation.

For Recommendation 3, USAID/Nigeria, in conjunction with the implementing partner,
will forecast, procure, import, and store at the central level all the ARV drugs, rapid-test
kits, and PMTCT commodities, beginning in February 2010. By January 31, 2010,
USAID/Nigeria will have a plan of action to investigate and rectify the weaknesses
outlined in the report from the two prime partners. By March 31, 2010, USAID/Nigeria
will institute a plan to visit warehouse and facility-based pharmacies quarterly.
Accordingly, we consider that a management decision has been reached on this
recommendation.

For Recommendation 4, USAID/Nigeria will more fully investigate the situation at the
warehouse in question by January 30, 2010. If problems still exist, the mission will
develop a plan of action to ensure that the commodities are either disposed of properly
or redistributed to beneficiaries. USAID\Nigeria will address the unsecured items by
January 30, 2010, develop an action plan to reduce these practices, and monitor through
spot checks the practices used for the unsecured commodities. Also, the mission is
taking steps to put in place a plan to increase control of expired commodities by
February 2010. Accordingly, we consider that a management decision has been
reached on this recommendation.

For recommendation 5, USAID/Nigeria’s Office of Financial Management and the Office
of Acquisition and Assistance will undertake a joint review with the technical team by
March 31, 2010, to address the allowability of the $39,720 in unsupported questioned
costs. This will include the development of remediation steps to prevent co-mingling of



                                          11

drugs from different funding sources and implementing partners. The mission also will
incorporate regular, rigorous cross-checking and data verification to reconcile physical
and inventory counts. USAID/Nigeria will review the current practices and establish an
action plan for improved records keeping and management tracking controls by March
31, 2010.

The mission’s written comments on the draft report are included in their entirety as
appendix II to this report (see pages 15–20).




                                        12

                                                                               Appendix I



SCOPE AND METHODOLOGY 

Scope
The Office of the Regional Inspector General/Dakar (RIG/Dakar) conducted this audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions, pursuant to our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions in support of our audit objectives. The audit was conducted as
part of a worldwide audit led by the Office of Inspector General’s Performance Audit
Division of USAID. The audit was designed to answer the following audit objectives:

	 Did USAID/Nigeria’s activities for the prevention of mother-to-child transmission of
   HIV contribute toward meeting mandated targets, and what has been the impact?

	 Did USAID/Nigeria procure, store, and distribute commodities for the prevention of
   mother-to-child transmission of HIV to help ensure that intended results were
   achieved, and what has been the impact?

In planning and performing the audit, RIG/Dakar reviewed and assessed the
effectiveness of internal controls related to the President’s Emergency Plan for AIDS
Relief (PEPFAR) activities for the prevention of mother-to-child transmission (PMTCT) of
HIV. During the audit, we requested and reviewed (1) the mission’s documentation
related to managing and monitoring the program, (2) implementing partners’ reports, (3)
the mission’s site visit reports, and (4) the mission’s annual self-assessment of internal
control in accordance with the Federal Managers’ Financial Integrity Act of 1982, Public
Law 97–255, 96 Stat. 814.

Fieldwork was conducted from April 27 to May 27, 2009, at USAID/Nigeria, partner
offices in Abuja, and at selected sites throughout Nigeria including the states of Cross
River, Lagos, and Niger. During the period covered by the audit, October 2007 to
September 2008, USAID/Nigeria obligated $7.5 million and disbursed $5.8 million for
PEPFAR-funded PMTCT activities.

Methodology
To answer the audit objectives, we met with USAID/Nigeria’s officials, including staff
from the health office. We also met with implementing partners and with staff from the
Supply Chain Management System, Centers for Disease Control and Prevention, and
the Department of Defense representative in Abuja. We reviewed and analyzed the
following documents: FY 2007 and FY 2008 country operational plans, FY 2008 annual
progress report, FY 2008 program portfolio review, implementing partners’ work plans,
quarterly progress reports, and trip reports.

For all four indicators listed on page 4 of this report, we validated performance results
and compared reported information with documented results in work plans and progress
reports submitted by the implementing partners. In addition, we reviewed documentation



                                         13

                                                                              Appendix I


(e.g., summary worksheets, records, and tables) supporting the results reported by
USAID/Nigeria. We determined achievement of each indicator by utilizing a threshold
criterion of at least 90 percent.

In addition, we judgmentally selected (on the basis of the nature, implementing partner,
and location of the activities) 9 of the 190 PMTCT clinics in 3 of the 36 states (Niger,
Cross River, Lagos) covered by PEPFAR. At the nine sites visited, we verified the
reported results for two of the four main indicators—the number of pregnant women who
had received counseling and testing for HIV and had received their test results and the
number of pregnant HIV-positive women who had received ARV prophylaxis. At the
nine sites visited, we verified the stock balance for three judgmentally selected drugs.

In addition, we visited two central warehouses in Abuja and two regional warehouses in
the states of Lagos and Calabar. At the warehouses and the clinics visited, we observed
storage conditions, conducted test counts of selected antiretroviral drugs and test kits,
and interviewed responsible staff. We also observed storage conditions in the
storerooms, pharmacies, and laboratories; tested the accuracy of reported data;
reviewed monthly commodity ordering reports; and examined commodities to determine
expiration dates.

To ascertain the impact of the results achieved, we relied on the testimony of
USAID/Nigeria officials, implementing partners, and beneficiaries. We also reviewed
mission and implementing partners’ reports to determine the impact of the PMTCT
activities.




                                        14

                                                                                      Appendix II



MANAGEMENT COMMENTS 




                                   MEMORANDUM
To:            Gerard Custer, Regional Inspector General

From:          Dr. Ray Kirkland, Mission Director

Date:          January 7, 2010

Subject:       Response to the Audit of USAID/Nigeria’s PEPFAR-Funded Activities and
               Commodities for the Prevention of Mother-to-Child Transmission (PMTCT) of
               HIV (Report No. 7-620-10-00X-P)

This memorandum serves as USAID/Nigeria’s formal written response to the subject audit
report, expanding on your requests for additional clarifications for management decisions to the
recommendations. We would like to thank the RIG auditors for their time, patience and
flexibility in working in the challenging environment that Nigeria can be. We appreciate and
value your observations and recommendations.

Comments on Audit Objective 1

USAID/Nigeria is pleased that the audit report concurs that USAID activities have achieved
significant results over and above the required targets. We agree with the audit findings that the
identified weaknesses are unlikely to have any significant affect on the results reported for
PMTCT in FY 2008. We also concur with the RIG Audit Team that the findings from a small
sample cannot be generalized onto the entire program, and that there are normal data quality
challenges for most projects.

The RIG Audit Team correctly identified the data collection challenges faced by implementing
partners in Nigeria as: 1) misinterpretation of the indicator being reported; 2) high staff
turnover; and 3) insufficient capacity to train staff in data collection that matches the rate of
staff turnover. These are challenges that have affected the USAID PEPFAR-funded activities
and PEPFAR/Nigeria programs as a whole. USAID and the USG PEPFAR Nigeria team are
working to address these problems.

The audit report states that “the Office of the U.S. Global AIDS Coordinator and USAID
management relied on inaccurate data to make funding and programmatic decisions, such as the


                                          15

funding level for the PEPFAR activities and the overall assessment of PEPFAR’s achievements
in Nigeria.” We feel this statement may be overly general if this conclusion is drawn from the
audit’s sample. We are concerned about drawing conclusions based on a sample size that
represents less than 5% of the USAID PMTCT programming and less than 2% of
PEPFAR/Nigeria’s PMTCT programming, and where the shortcomings did not affect the
overall achievement of PEPFAR Nigeria targets.

The RIG Audit Team visited 9 USAID PMTCT sites out of a total of 190 PMTCT sites
implemented nationwide by three different USAID implementing mechanisms during FY 2008.
This represents less that 5% of USAID PMTCT programming in Nigeria and less than 2% of
the total 472 PMTCT sites that were implemented through PEPFAR/Nigeria during FY 2008.

Response to Recommendation 1 and 2

Both Recommendation 1 and Recommendation 2 are related to data quality and are closely
intertwined. The following response is applicable to the two recommendations:

USAID/Nigeria is in agreement with both Recommendations 1 and 2. Actions have in fact
been taken in support of both recommendations since the beginning of FY 2009 and are on-
going. USAID/Nigeria will request the implementing partners FHI and SCMS to conduct
appropriate refresher training over the next 120 days by April 3, 2010, for all administrative
staff and health workers responsible for collecting, compiling and reporting site data.
USAID/Nigeria will conduct refresher brownbags for USAID technical team staff, including
key AOTR/COTRs, on appropriate data quality oversight and management responsibilities.
USAID/Nigeria will also share data quality concerns arising from the RIG PMTCT audit with
the interagency PEPFAR management team and develop an action plan for further
complementary steps with partner USG agencies within six weeks, by February 12, 2010.

It is worth noting that USAID/Nigeria has already expanded rigorous efforts to ensure the
quality of data in USAID/Nigeria HIV/AIDS sites broadly. In FY 2009, the HIV/AIDS & TB
Team conducted regular, systematic data quality assurance (DQA) assessments of 12
USAID/Nigeria HIV/AIDS sites, including 2 of the 3 PMTCT partners visited by the RGI
auditors PMTCT sites. DQAs were also conducted in 2007, including at PMTCT sites. DQA
visits are on-going and part of USAID/Nigeria’s normal mode of doing business as specified in
the ADS.

USAID/Nigeria will procure an external agent to conduct DQAs including data verification
(cross-checking); to provide assistance to USAID HIV/AIDS partners with performance
monitoring and reporting; and to provide added technical assistance in monitoring and
evaluation. The agent will focus on implementers with weaknesses in the data collection and
reporting systems. It is anticipated that this new mechanism will be in place by July 30, 2010.

Over the course of the last year, when USAID/Nigeria discovered persistent data quality
weaknesses during DQA assessments, USAID provided direct and immediate technical
assistance to Axios, a sub-recipient, to improve the situation, in coordination with the principal
recipient. In June 2009, a USAID/Nigeria partner provided Monitoring and Evaluation training



                                          16

for all USAID/Nigeria HIV/AIDS partners, including PMTCT partners, to help upgrade their
skills in monitoring and evaluation to better equip them to collect accurately data for reporting
purposes as well as data for decision making. The USAID/Nigeria partner that specializes in
capacity building, the Leadership, Management and Sustainability (LMS) program, is providing
ongoing technical assistance to all HIV/AIDS partners to help implement the lessons learned in
the Monitoring and Evaluation training.

USAID/Nigeria and the USG PEPFAR Nigeria team are working diligently to strengthen the
capacity of Nigeria to produce sound data. Host country counterparts from the Nigerian
government are routinely included in all monitoring and evaluation efforts and in many of our
DQA visits to facilitate transfer of knowledge and empower our Government of Nigeria
counterparts to ensure the collection of quality data at service delivery points and the use of that
data to make solid programmatic decisions.

Comments on Audit Objective 2

USAID/Nigeria and PEPFAR/Nigeria work in an extremely challenging environment as related
to commodities and logistics efforts. Nigeria’s size, its decentralized governance structures as a
federation of relatively autonomous states and a legacy of poor investment in the social sector
over the last two decades make Nigeria a more difficult environment than other countries. Prior
to PEPFAR, all Nigerian public sector warehouses were deemed to be substandard by
international guidelines for appropriate warehousing of ARV commodities. Significant efforts
have taken place to improve the in-country capacity and to ensure that USG funded
commodities are managed appropriately.

Response to Recommendation 3

The USG PEPFAR Logistics Team in Nigeria has already taken and plans to take additional
concrete steps to address inventory management and control problems. The following
measures are being taken. Starting February 2010, USAID/Nigeria as part of PEPFAR/Nigeria
together with a USAID implementer, the Supply Chain Management Systems (SCMS)
program, will jointly forecast, procure, import and store at the central level all the ARV drugs,
Rapid Test Kit (RTK) and PMTCT commodities. A warehouse in Abuja that is compliant with
national and international pharmaceutical norms has been selected and outfitted. This
warehouse will be managed by SCMS. Checks and balances have been built in to ensure quality
logistic practices are in place including, but not limited to, the following:

      Data verification (cross-checking).
      End of month records reconciliation (physical count).
      USG Logistics Group / SCMS co-management of the entire logistics cycle.
      Temperature mapping. Eight automated loggers are strategically placed (high and low)
       to monitor if any "hot spots" are identified. These are read and recorded monthly.
      36 a/c units on the perimeter walls and in the receiving and dispatch bays.
      Pest control.
      Electric forklift (the only kind feasible due to fumes from others).
      The warehouse is a hard hat facility.


                                          17

      The warehouse has limited access, which is controlled through a keypad access control
       with periodic code changes.
      Separate receiving and dispatch areas.
      A separate quarantine cage for expired commodities.
      Fire extinguishers and detectors.
      Closed Circuit Television.
      24 hour guard service.
      Medium gauge storage racks to optimize space utilization.

USAID/Nigeria partners will continue working with their respective distribution agents to
deliver goods to their sites. Increased emphasis on quality logistics and the example provided
by the USG/SCMS team will be a good start to improving logistics practices around the
country. Furthermore, USAID/Nigeria will institute by March 31, 2010 a plan to visit
warehouse and facility-based pharmacies on a quarterly basis on a rotational schedule to ensure
a good sampling of implementing mechanisms and types (levels) of service delivery points.
Increased monitoring will ensure increased vigilance on the part of USAID/Nigeria partners to
ensure that their sub-partners are complying with expected standards.

Furthermore, USAID/Nigeria and the USG PEPFAR Nigeria team are taking steps to increase
control of expired commodities to ensure appropriate, environmental compliant destruction of
said commodities. This effort will allow PEPFAR/Nigeria to identify wastage by drug category
and implementing mechanism to better target interventions to reduce potential wastage and
ensure that expired commodities are not a target for pilferage. A plan for this effort is currently
in development and is expected to be in place by February 2010.

In addition, USAID/Nigeria has already communicated the deficiencies noted by the RIG to the
two prime recipients who have sub-agreements with Axios as their commodities distribution
agent. We will have a plan of action to investigate and rectify the weaknesses outlined in the
report from the two prime partners no later that January 31, 2010.

Response to Recommendation 4

USAID/Nigeria takes very seriously the concerns expressed by the auditors as related to the
unsecured expired and unexpired commodities. There is full agreement that no commodities
should be exposed to the elements in an insecure environment. The finding highlights a
weakness in the warehousing practices in Nigeria and will receive immediate attention.

USAID/Nigeria will more fully investigate the situation at the warehouse in question by
January 30, 2010 and determine whether problems continue to exist. If the findings of the RIG
auditors are still in evidence we will develop a plan of action to ensure that the commodities are
either disposed of properly or redistributed to beneficiaries. USAID\Nigeria will address the
unsecured items with the USAID and CDC implementing partners using the warehouse by
January 30, 2010, develop an action plan to reduce these practices, and monitor through spot
checks the practices of the principal sub-grantee responsible for the unsecured pharmaceutical
products.




                                          18

USAID/Nigeria is taking measures to ensure that these practices are reduced. As seen in the
response to Recommendation 3, starting February 2010, USAID/Nigeria together with other
agencies on the USG PEPFAR Nigeria team, together with the SCMS team, will jointly
forecast, procure, import and store at the central level all the ARV drugs, Rapid Test Kit (RTK)
and PMTCT commodities. A warehouse in Abuja that is compliant with national and
international pharmaceutical norms has been selected and outfitted. This warehouse will be
managed by SCMS. Checks and balances have been built in to ensure quality logistics practices
are in place.

This effort will include a separate quarantine cage for expired commodities. USAID/Nigeria
and the USG PEPFAR team are taking steps to increase control of expired commodities to
ensure appropriate, environmental compliant destruction of said commodities. This effort will
allow PEPFAR/Nigeria to identify wastage by drug category and implementing mechanism to
better target interventions to reduce potential wastage and ensure that expired commodities are
not a target for pilferage. A plan for this effort is currently in development and is expected to
be in place by February 2010.

By March 2010, USAID/Nigeria and the USG PEPFAR team will increase monitoring visits to
the central warehouses to ensure compliance with expected warehousing standards by making
quarterly rotational visits to warehousing facilities in Nigeria. This practice will also be
extended to facility-based pharmacies.

Response to Recommendation 5

USAID/Nigeria agrees with Recommendation 5. USAID/Nigeria’s Office of Financial
Management and the Office of Acquisition and Assistance will undertake a joint review with
the technical team by March 31, 2010 to address the allowability of the $39,720 in unsupported
questioned costs. This will include the development of remediation steps to prevent co-
mingling of drugs from different funding sources and implementing partners, and will
incorporate regular rigorous cross-checking and data verification to reconcile physical and
inventory counts.

USAID fully supports the practice of proper records keeping in logistics management. The RIG
team’s findings could be an example of lapses in such practices. However, based on
information provided, it remains difficult to ascertain if the differences between physical and
paper-based stock are an example of stock missing or stock relocated to other dispensing
facilities or sites. For example, on clinic days, a pharmacy may issue stock to dispensing units
and may not keep track of what’s gone out to a building next door. The stock may still be at the
hospital but not physically in the pharmacy. While certainly not best practice, these inventories
are often reconciled on a monthly basis. In part this practice is a result of insufficient manpower
and the lack of appropriately trained staff that results from a rapid turnover seen in many health
care facilities in Nigeria. USAID/Nigeria will review the current practices and establish an
action plan for improved records keeping by March 31, 2010.

 In addition, partners often borrow from each other and the differences are settled in between
 the reporting periods. Thus, at the end of the month the stock levels are matched physically



                                          19

and on paper but in a given day they may not be equal. USAID does not support such laxity in
records keeping and will ensure improved documentation in the event of commodity shifts
from one partner to another. However, program management in the field suggests that we
need to avoid overly restrictive controls that block the flexibility and fluidity of commodity
exchanges that sometimes take place between service delivery sites. This flexibility for
exchange allows USG PEPFAR Nigeria partners to move short dated drugs from one partner
to another and thereby avoid wastage and expiration before use. However USAID will
develop appropriate management tracking controls by March 31, 2010 that will mitigate this
potential vulnerability, and to document any commodity exchange.




                                       20

U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel.: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig
